HHS/OIG, Audit - "Review of High-Dollar Payments for Medicare
Part A Claims Processed by Pinnacle Business Solutions, Inc., for the Period
January 1, 2003, Through December 31, 2003," (A-06-07-00057)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for Medicare Part A Claims Processed by Pinnacle Business Solutions,
Inc., for the Period January 1, 2003, Through December 31, 2003,"
(A-06-07-00057)
December 28, 2007
Complete Text of Report is available in PDF format (313 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
Pinnacle Business Solutions, Inc.s (Pinnacle) high-dollar Medicare payments to
Arkansas Part A providers for inpatient and outpatient services were
appropriate.  Of the eight high-dollar inpatient payments and one
high-dollar outpatient payment that Pinnacle made to providers, one inpatient
payment was appropriate.  However, Pinnacle overpaid providers $79,037 for six
inpatient claims and $257,862 for one outpatient claim.  We were not able
to determine the error amount for one inpatient claim because it had not been
adjusted by the end of our fieldwork.  We recommended that Pinnacle ensure
that the $336,899 in overpayments have been recovered, follow up with the
provider on the one claim that had not been adjusted, use the results of this
audit in its provider education activities, and identify and recover any
additional overpayments made for high-dollar Part A inpatient claims paid after
calendar year 2003.  Pinnacle agreed with the findings and recommendations.